TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Reducing the Processing Time
                            Between Balance Due Notices
                             Could Increase Collections



                                      September 26, 2011

                              Reference Number: 2011-30-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


REDUCING THE PROCESSING TIME                        modules, collected the most money, and
BETWEEN BALANCE DUE NOTICES                         generated the most taxpayer responses.
COULD INCREASE COLLECTIONS                          Balance due modules not resolved after the
                                                    Master File notice continue in the notice stream,
                                                    and the taxpayers receive various sequences of
Highlights                                          notices. While the statutory requirement to
                                                    provide notice of a balance due is met with the
Final Report issued on                              Master File notice, the IRS may send up to three
September 26, 2011                                  reminder notices. The IRS allows 35 days
                                                    between notices for the taxpayer to respond, but
Highlights of Reference Number: 2011-30-112         our analysis shows that the time between
to the Internal Revenue Service Commissioners       notices can be reduced to reflect taxpayer
for the Small Business/Self-Employed Division       response times. As these balance due modules
and the Wage and Investment Division.               progress within the notice stream, the probability
                                                    of collection diminishes. TIGTA estimates that
IMPACT ON TAXPAYERS                                 by reducing the time between each notice by
The notice stream is the least costly of the        seven days, the notice stream could potentially
Internal Revenue Service’s (IRS) three-phase        collect an additional $363 million each year.
approach to collecting unpaid taxes. While the      However, a study analyzing the impact of
notice stream collects billions of dollars in       reducing the time would be needed to quantify
delinquent taxes annually, reducing the time        the benefits. In addition, taxpayers could
between notices could result in millions more       potentially save $1.8 million each year in interest
being collected annually. If the IRS does not       payments.
effectively pursue collection of unpaid tax         Our analysis of the 11.6 million balance due
through the notice stream, it could create an       modules that entered the notice stream in Fiscal
unfair burden on the majority of taxpayers who      Year 2010 also showed the notice stream does
fully pay their taxes on time.                      not always treat taxpayers with more than one
WHY TIGTA DID THE AUDIT                             delinquency the same. As a result, the IRS may
                                                    not use collection resources most effectively.
This audit was initiated to determine whether the
IRS balance due notice stream is effectively        WHAT TIGTA RECOMMENDED
collecting taxes owed and providing timely          TIGTA recommended that the IRS consider
service to taxpayers. The audit was included in     reducing the time between each notice by seven
our Fiscal Year 2010 Annual Audit Plan and          days and consider establishing a business rule
addresses the major management challenge of         to address taxpayers with more than one
Tax Compliance Initiatives.                         balance due module entering the notice stream
WHAT TIGTA FOUND                                    at the same time. The IRS agreed with TIGTA’s
                                                    recommendations and plans to take corrective
During Fiscal Year 2010, the IRS sent               actions. However, the IRS stated 35 days
approximately 21.9 million balance due notices      between notices was necessary to process
to individuals to try to collect approximately      taxpayer inquiries and correspondence. In
$67.9 billion in 11.6 million balance due           addition, the IRS disagreed with the outcome
modules. More than one-half of the 11.6 million     measures, stating it has enforcement tools not
balance due modules that entered the notice         available to private industry. It is unclear why
stream were closed as fully paid or an              the IRS refers to its enforcement tools because
installment agreement was established, but only     collection rates in private industry are higher
16.5 percent of the total assessment amount         than in the IRS. Further, the IRS Office of
was collected. By a wide margin, the first notice   Research has reported that the probability of
(the Master File notice) closed the most            collection diminishes as taxpayers’ balance due
                                                    accounts age.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Reducing the Processing Time Between Balance
                             Due Notices Could Increase Collections (Audit # 201030020)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s (IRS) balance due notice stream in collecting taxes owed and providing
 timely service to taxpayers. This review was included in our Fiscal Year 2010 Annual Audit
 Plan and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                       Reducing the Processing Time Between
                                   Balance Due Notices Could Increase Collections




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Notice Stream Collects Billions of Dollars, but Significant
          Dollars Remain Uncollected at the End of the Stream ................................. Page 4
          Extra Processing Time Between Reminder Notices Postpones
          Collection Action and Reduces Potential Revenue ...................................... Page 5
                    Recommendation 1:........................................................ Page 13

          Processing Varies for Taxpayers With Multiple Balance
          Due Modules ................................................................................................. Page 13
                    Recommendation 2:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Computer Paragraph Notices ................................................ Page 22
          Appendix VI – Notice Results ...................................................................... Page 23
          Appendix VII – Glossary of Terms .............................................................. Page 24
          Appendix VIII – Management’s Response to the Draft Report ................... Page 26
           Reducing the Processing Time Between
       Balance Due Notices Could Increase Collections




               Abbreviations

ACS      Automated Collection System
CFf      Collection Field function
CP       Computer Paragraph
FY       Fiscal Year
GAO      Government Accountability Office
IDRS     Integrated Data Retrieval System
IRS      Internal Revenue Service
TDA      Taxpayer Delinquent Account
                                  Reducing the Processing Time Between
                              Balance Due Notices Could Increase Collections




                                             Background

The Internal Revenue Service (IRS) identifies unpaid tax liabilities by using a variety of
techniques, including (1) identifying taxpayers who file tax returns without fully paying the tax
reported to be owed, (2) checking for obvious errors when processing returns, (3) finding
additional tax liabilities by auditing a filed tax return,
(4) assessing a penalty for some taxpayer action or
                                                                 The notice stream is one of
inaction, and (5) sending a bill to a taxpayer who did not       the IRS’s three phases for
file a required tax return. These liabilities move through        collecting unpaid taxes.
the IRS’s three phases for collecting unpaid tax
liabilities until they are determined to be uncollectible,
collected, or otherwise resolved:
    •    Notice Stream: The IRS sends a series of balance due notices to the taxpayer to prompt a
         reply or payment by the taxpayer.
    •    Telephone Contact (Automated Collection System (ACS)1): IRS employees attempt
         telephone contact with the taxpayer to prompt a payment or take enforcement action that
         may include levying financial assets or filing a lien against property.
    •    In-person contact (Collection Field function (CFf)): Revenue officers contact the
         taxpayer to prompt a payment or take enforcement action, including levies, liens, and
         seizures of property.
The IRS uses an “assembly line” approach for its collection cases, starting with a preset number
of automatically generated balance due notices (notice stream), followed by assignment to the
ACS, followed by placement in a queue for assignment to revenue officers. Statutory2
requirements provide that the IRS send one notice of deficiency for each assessment to the
taxpayer. Accordingly, the notice stream begins with the issuance of the statutory notice, which
is generated by the Master File, followed by reminder notices, which are generated by the
Integrated Data Retrieval System (IDRS). During the notice stream for individual taxpayers, the
IRS’s general practice is to send up to four3 notices at 5-week intervals to collect the balances
due (the IRS provides 6 weeks from the Computer Paragraph (CP) 504 notice4 before issuing a
Taxpayer Delinquent Account (TDA)). Figure 1 illustrates the notice stream for a taxpayer who
files an individual tax return with a balance due.


1
  See Appendix VII for a glossary of terms.
2
  26 U.S.C. § 6303(a).
3
  Business taxpayers receive up to two notices. Business taxpayers are outside the scope of this review.
4
  See Appendix V for a list of CP notices.
                                                                                                           Page 1
                                          Reducing the Processing Time Between
                                      Balance Due Notices Could Increase Collections



                Figure 1: IRS Balance Due Notice Stream Process for Individuals
       Time Between
    Issuance of Notices:
                           35 Days               35 Days               35 Days               42 Days

         Taxpayer                     Taxpayer              Taxpayer              Taxpayer                 Queue,
                           Taxpayer              Taxpayer              Taxpayer              Taxpayer
         receives                     receives              receives              receives               telephone,
                           does not              does not              does not              does not
          CP 14                        CP 501                CP 503                CP 504               or in-person
                           respond               respond               respond               respond
                                                                                                           contact


      Age of Account:                 35 Days               70 Days               105 Days               147 Days


Source: Our analysis of the notice stream.

The Master File generates a CP 14 notice (Balance Due of $5 or More, No Math Error) and
sends it to the taxpayer. If the taxpayer does not respond to this notice, the IDRS will generate a
CP 501 notice (1st Notice – Individual Master File Balance Due) as the first reminder notice. If
the taxpayer does not respond to this notice, then the CP 503 notice (2nd Notice – Individual
Master File Balance Due) is issued as the second reminder notice. If the taxpayer still has not
responded, the IDRS generates the CP 504 notice (Final Notice – Individual Master File Balance
Due), which is sent as an urgent notice to remind a taxpayer of a balance due. The CP 504 notice
is the final balance due notice and includes information on the IRS’s right to levy the taxpayer’s
State income tax refund5 and on how the taxpayer can prevent collection action. If the taxpayer
does not respond to the CP 504 notice, a TDA is issued for the taxpayer’s module. Depending
on the specific circumstances of the taxpayer (such as a prior period liability), the IRS may skip
one or more of the reminder notices.
In November 2008, the IRS Taxpayer Communication Task Force initiated a review of all
notices sent to taxpayers. The task force’s objectives included simplifying and clarifying notice
language; instituting effective measures; streamlining and improving business processes; and
eliminating unnecessary or duplicative notices, letters, reminders, and inserts. In May 2010, the
IRS issued Notice Effectiveness Reports for each of the three reminder notices (CP 501, CP 503,
and CP 504). These reports presented the redesigned notices, which consisted of wording and
format changes to make the notices easier to read and understand. The revised versions of these
notices were implemented on February 1, 2011.
In September 2009, the Government Accountability Office (GAO) reported6 the IRS lacks
reasonable assurance that collection notices achieve desired results and lacks documentation on
the notice stream business rules and whether the notices work as intended. The GAO concluded
the notice stream may be operating well, but given the lack of objectives and performance
measures for the process, its efficiency and effectiveness are not assured and opportunities for
improving performance may be missed.

5
 26 U.S.C. § 6330(f).
6
 Tax Debt Collection: IRS Needs to Better Manage the Collection Notices Sent to Individuals (GAO-09-976, dated
September 2009).
                                                                                                           Page 2
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



This review was performed at the Headquarters Offices of the Small Business/Self-Employed
Division in New Carrollton, Maryland, and the Wage and Investment Division in
Atlanta, Georgia, during the period December 2010 through April 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Rounding impacted the percentage amounts shown throughout this
report. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                               Reducing the Processing Time Between
                           Balance Due Notices Could Increase Collections




                                   Results of Review

The Notice Stream Collects Billions of Dollars, but Significant Dollars
Remain Uncollected at the End of the Stream
The balance due notice stream allows the IRS to maximize collections while minimizing costs in
pursuing individual taxpayer balance due modules. Because notices are computer generated and
mailed to taxpayers, there is little direct involvement by IRS employees. To the extent that
taxpayers then take action to pay or otherwise resolve their balance due modules, collections can
occur with relatively little additional IRS investment. When taxpayers do not respond during the
notice stream, the module pertaining to the balance due is issued a TDA. The IRS sends these
TDAs to the Collection Queue or takes immediate enforcement action through the other two
phases (telephone contact or in-person contact) to collect the balance due modules. Such
enforcement action is more labor-intensive and expensive.
During Fiscal Year (FY) 2010, the IRS sent approximately 21.9 million balance due notices to
individuals to try to collect approximately $67.9 billion in 11.6 million balance due modules.
Figure 2 shows the disposition of these modules while in the stream.
         Figure 2: FY 2010 Balance Due Notice Stream Activity (in billions)




       Source: Our analysis of the IRS Collection Database of individual modules entering the balance due
       notice stream in FY 2010.

Through the use of the notice stream, the IRS obtained more than $11.2 billion (16.5 percent) of
the $67.9 billion in full or partial payments. In addition, balance due modules with assessments

                                                                                                       Page 4
                                  Reducing the Processing Time Between
                              Balance Due Notices Could Increase Collections



of nearly $9.5 billion were abated and $2.1 billion were offset via taxpayer refunds by
overpayments in a subsequent module. Also $8.4 billion left the notice stream because the
taxpayer entered into an installment agreement.7 Another $32.4 billion (48 percent) of the
$67.9 billion exited the notice stream uncollected, of which $18.8 billion was moved to more
costly collection phases (the ACS and the CFf).

Extra Processing Time Between Reminder Notices Postpones
Collection Action and Reduces Potential Revenue
Our analysis of the 11.6 million individual taxpayer modules in the notice stream showed the
majority of collections and taxpayer responses were the result of the statutory Master File
notice. The balance due modules not resolved after the Master File notice spend up to 76 percent
of the time in the notice stream collecting 35 percent of the dollars received during the notice
stream process. Specifically, our results showed:
    •   The Master File notice meets the statutory notification requirement.
    •   The Master File notice is the most effective notice.
    •   The processing time between notices can be reduced to reflect taxpayer response time.
    •   The time between the notices can be reduced to increase revenue and reduce taxpayer
        costs.

The Master File notice meets the statutory notification requirement
After a balance due is established for a taxpayer, the IRS has a statutory requirement to send
one notice of deficiency to the taxpayer. Specifically, the Internal Revenue Code8 requires the
IRS to, as soon as practicable and within 60 days after the making of an assessment pursuant to
Section 6203,9 give notice to the taxpayer liable for the unpaid tax, stating the amount and
demanding payment thereof. This notice should be mailed to the taxpayer’s last known
address.10 This statutory requirement is met by providing taxpayers with the Master File notice.
The CP 501 and CP 503 notices are discretionary, not mandatory. The IRS sends the CP 501 and
CP 503 notices to the taxpayer as a reminder that the taxpayer’s balance due is still unpaid.



7
  The $8.4 billion associated with the modules exiting the notice stream due to an installment agreement is not yet
collected. An installment agreement allows a taxpayer who does not have the funds to make a full payment to
instead make installment payments over a prescribed period of time. In some instances, the taxpayer defaults on the
agreement and the money is never collected.
8
  26 U.S.C. § 6303(a), Notice and Demand for Tax.
9
  26 U.S.C. § 6203, Method of Assessment.
10
   The last known address is that shown on the most recently filed and properly processed tax return, unless the IRS
received notification of a different address.
                                                                                                            Page 5
                                  Reducing the Processing Time Between
                              Balance Due Notices Could Increase Collections



The CP 504 notice is sent as a final notice to remind taxpayers of a balance due and of the IRS’s
intent to levy a State tax refund as part of the State Income Tax Levy Program.11 The CP 504
notice is also mandatory for this reason. However, only 34 States (including the District of
Columbia) participate in the State Income Tax Levy Program. Accordingly, the notice of intent
to levy a State refund would not apply to all taxpayers because it would not be mandatory for
taxpayers living in States that do not participate in the program.

The Master File notice is the most effective notice
The statutory Master File notice is the first notice sent to the taxpayer. By a wide margin, the
Master File notice was the most effective notice in all measures of success.12 Specifically, the
Master File notices:
     •   Resulted in 2.79 times more closures than all other notices combined.
     •   Collected 1.84 times more dollars than all other notices combined.
     •   Generated 2.02 times more taxpayer responses than all other notices combined.
Modules closed: 6.9 million (59 percent) of the 11.6 million balance due modules that entered
the notice stream in FY 2010 were closed as fully paid or the taxpayer entered into an installment
agreement. Figure 3 shows that more than 73 percent (more than 5 million) of the 6.9 million
closures were a result of the Master File notice.
                            Figure 3: Modules Closed by Notice Type




                 Source: Our analysis of the IRS Collection Database of individual modules
                 entering the balance due notice stream in FY 2010.

11
   Each State with income tax requirements can sign an agreement with the IRS to permit the State tax refund to be
applied to a Federal tax liability.
12
   See Appendix VI for the results of each notice.
                                                                                                            Page 6
                               Reducing the Processing Time Between
                           Balance Due Notices Could Increase Collections



More than 2.6 million (52 percent) of the 5 million closures by the Master File notice were due
to full payment; the other 48 percent were because the taxpayer entered into an installment
agreement.
Dollars Collected: $11.2 billion (16.5 percent) of the nearly $68 billion of assessed taxes that
entered the notice stream were collected while still in the stream. Figure 4 shows approximately
65 percent ($7.2 billion) of the $11.2 billion was collected as a result of the Master File notice.
                         Figure 4: Dollars Collected by Notice Type




               Source: Our analysis of the IRS Collection Database of individual modules
               entering the balance due notice stream in FY 2010.

Taxpayer Responses: An important goal of the notice stream is making contact with taxpayers
so the IRS can assist them in resolving delinquencies. The notice stream generated taxpayer
responses from 8.3 million (71 percent) of the 11.6 million modules. Figure 5 shows that about
67 percent (5.6 million) of the 8.3 million taxpayer responses came as a result of the Master File
notice.




                                                                                             Page 7
                               Reducing the Processing Time Between
                           Balance Due Notices Could Increase Collections



                      Figure 5: Taxpayer Responses by Notice Type




               Source: Our analysis of the IRS Collection Database of individual modules
               entering the balance due notice stream in FY 2010.

Our results show that by a wide margin, the Master File notice closes the most modules, collects
the most money, and generates the most taxpayer responses. Accordingly, if only the statutory
notices were sent to the taxpayers, the majority of tax delinquencies that are now collected would
still be collected.

The processing time between notices can be reduced to reflect taxpayer
response time
For each notice sent, the IRS allows 5 weeks (35 days) for the taxpayer to resolve the balance
due before sending the next notice. According to the IRS, this is to provide sufficient time for
the taxpayer to submit his or her payment and the IRS to process the payment and avoid
unnecessary notices sent to the taxpayer.
Figure 6 compares the average taxpayer response time (which includes the time it takes the IRS
to process the payment) for each notice based on our analysis of the 11.6 million balance due
modules that entered the notice stream in FY 2010. This comparison also includes the number of
days the IRS allows for a response per the notices and IRS procedures.




                                                                                            Page 8
                                   Reducing the Processing Time Between
                               Balance Due Notices Could Increase Collections



                 Figure 6: Time Allowed Compared to Actual Response Time




           Source: CP 14, CP 501, CP 503, and CP 504 notice processing times, IRS procedures, and our
           analysis of the 11.6 million balance due notices in FY 2010.

The IRS advises taxpayers they have 21 days to respond to the Master File notice, but allows
35 days before sending the next notice. However, the subsequent reminder notices (CP 501,
CP 503, and CP 504) advise the taxpayers they have just 10 days to respond, but the IRS still
allows 35 days before sending the next notice (the IRS provides 6 weeks from the CP 504 notice
before issuing a TDA). Based on discussions with IRS officials, it is unclear why it is necessary
for the IRS to allow the additional time for each reminder notice, compared with the Master File
notice. Further, our analysis showed that approximately 67 percent of taxpayers who respond
during the notice stream did so after the Master File notice (and responded within 26 days on
average).
Taxpayers may respond to a notice by submitting correspondence inquiring about their balance
due module or providing information for the IRS to consider in regards to their inability to pay.
This correspondence will be routed to the IRS area13 that processes taxpayer correspondence
regarding balance due modules. While their correspondence is processed, the IRS will prevent
the next notice from being sent to the taxpayer for another 8 weeks (56 days).
In addition, while IRS procedures allow 5 weeks (35 days) between the issuance of notices if the
taxpayer does not respond, we found that, on average, the time between notices is consistently
longer. For example, Figure 7 shows that it took the IRS 44 days (compared to 35 days) to send



13
     Compliance Services Collection Operations located at each IRS campus.
                                                                                                        Page 9
                                  Reducing the Processing Time Between
                              Balance Due Notices Could Increase Collections



a taxpayer the CP 504 notice, and it took the IRS 39 days (compared to 35 days) to send the
taxpayer a CP 503 notice.
                 Figure 7: Actual IRS Processing Times Between Notices
                                                               To
                                                CP501         CP503        CP504
                                  MF                38            39           44
                           From




                                  CP501                           37           40
                                  CP503                                        38
                 Source: Our analysis of the IRS Collection Database of individual modules
                 entering the balance due notice stream in FY 2010. MF = Master File.

Our analysis of the 11.6 million FY 2010 notice stream modules showed that the processing time
allowed between the notices was longer than necessary. We were advised the IRS has not made
changes to the time intervals between the notices in more than 15 years. Since that time, the IRS
has made many improvements to its mail and payment sorting capabilities and notice stream
processing. As a result, the IRS is more efficient at processing taxpayer payments than it was in
years past. The IRS can realize additional benefits from this increased efficiency by reducing the
time intervals between notices to improve revenue.

The time between the notices can be reduced to increase revenue and reduce
taxpayer costs
There is a widely accepted principle in the collection industry referred to as the collectability
curve, which measures the probability of collecting funds over time. Figure 8 is a
generally accepted industry collectability curve14 which shows that the probability of collecting
funds diminishes over time.




14
  Collectability statistics were based on a survey conducted by the Commercial Collection Agency Association of
the Commercial Law League of America among its members, who collectively handle about 80 percent of all
commercial debt claims placed for collection in the United States.
                                                                                                        Page 10
                                    Reducing the Processing Time Between
                                Balance Due Notices Could Increase Collections



                  Figure 8: Generally Accepted Industry Collectability Curve

                 100%
                   90%

                   80%
                   70%
                   60%
                   50%

                   40%
                   30%
                   20%
                   10%

                    0%
                            0       30       60       90          180   270    360      720

                                                           Days
               Source: Commercial Collection Agency Association.

In the collection industry, the probability of settling unpaid accounts falls dramatically over time,
as follows:
       •   After 3 months, collectability falls to 70 percent.
       •   After 6 months, collectability falls to 52 percent.
       •   After 12 months, collectability falls to 23 percent.
Similar to the industry collectability principle, the IRS has recognized its collections also
diminish as accounts age. Specifically, the IRS Office of Research conducted a study15 and
concluded that as more time elapses before an individual makes at least one payment, it becomes
less likely that they will do so at any subsequent time. However, the IRS does not compare
collectability with the milestones during the notice stream. For example, the IRS does not know
the specific reduction in collectability when a module moves from a CP 501 notice to a CP 503
notice or the specific impact of each additional day that passes when no collection action is
taken. Therefore, we estimated the impact of reducing the time between notices by using the
percentage point decreases of the collectability curve.
Specifically, our analysis showed that a 7-day reduction in the time between notices
corresponded to a 1-percent increase on the collectability curve (see Figure 8). For example, the
collectability curve suggests the likelihood of collection is 1 percent higher if the CP 501 notice


15
     United States Department of the Treasury, IRS – The IRS Research Bulletin, Publication 1500 (Rev. 11-99).
                                                                                                          Page 11
                                     Reducing the Processing Time Between
                                 Balance Due Notices Could Increase Collections



is sent to the taxpayer after 28 days instead of 35 days. Figure 9 shows the potential impact of
reducing the time between notices.
                     Figure 9: Impact of Reducing the Time Between Notices
                                                                   Percentage Increase 
         Notice Stream         Number of   Assessment Less                              Potential Increase in 
                                                                    on Collectability 
             Path               Modules      Collections                                       Collections
                                                                         Curve
     MF                              5,858,502   $  10,914,711,673         0%           $                                ‐
     MF plus one or
                                     5,767,196   $  36,343,485,312               1%              $              363,434,853
                                                                                                                 
       more notices
                                11,625,698 $  47,258,196,985                               $              363,434,853
                                                                                                           
      Source: Our analysis of the IRS Collection Database of individual modules entering the balance due notice
      stream in FY 2010. MF = Master File.

The notice stream could potentially collect an additional $363.4 million, based on the
11.6 million balance due modules that entered the notice stream during FY 2010. However, it
would be necessary to collect more information, such as a pilot study, to validate the benefits.
In addition to increasing collection within the notice stream, accelerating the notices through the
notice stream will also reduce the interest paid by taxpayers whose delinquent accounts exit the
notice stream and are subsequently paid by the taxpayers when the delinquent accounts are
assigned to the ACS or the CFf. Specifically, because taxpayers’ delinquent accounts will be
assigned to these other 2 collection phases 7 to 21 days earlier, the interest they will have
incurred will be less. Overall, the delinquent accounts for 466,544 taxpayers exited the notice
stream and then more than $1.4 billion was paid by the taxpayers after their delinquent accounts
were assigned to either the ACS or the CFf. By reducing the time between each notice by
7 days, we estimate that these taxpayers would pay about $1.8 million less in interest.
Also, accelerating the notice stream would allow the IRS to assign the remaining uncollected
modules to the more aggressive collection processes in the ACS and the CFf earlier in the
process, which should allow those functions to improve collection rates. We analyzed a
statistical sample16 of modules that were issued a CP 504 notice and determined that
collectability of balance due modules that exit the notice stream is low. Of the 296 modules we
reviewed, the CP 504 notice resulted in full or partial payments on only 12 modules (4 percent).
Of the remaining 284 balance due modules, 29 exited the notice stream and were placed into the
status indicating the balance was below the IRS tolerance for assignment, while 255 exited the
notice stream and the modules were issued TDAs. The ACS was assigned 209 (82 percent) of
these TDAs and 46 (18 percent) were assigned to the queue. Overall, 222 (78 percent) of the
284 balance due modules did not receive any payments after exiting the notice stream.



16
     Sample results were not projected to the population. Our sampling methodology is included in Appendix I.
                                                                                                                    Page 12
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



The IRS’s success with Master File notices supports the concept that collection potential is
greater earlier in the notice stream. We were advised that as long as the notices collect some
money, IRS management is satisfied with performance. While we agree there is a benefit in
providing taxpayers with reminder notices, we believe the IRS can improve the success of the
notice stream by reducing the time between the notices to take advantage of improvements the
IRS has made to its sorting and processing of payments and to be more consistent with taxpayer
behavior.

Recommendation
Recommendation 1: The Director, Office of Taxpayer Correspondence, Wage and
Investment Division, should consider reducing the time between each notice by 7 days.
       Management’s Response: IRS management agreed with this recommendation and is
       open to modifying the time between each notice subject to budget constraints and
       programming issues. The Director, Collection Policy, Small Business/Self-Employed
       Division, will consider this recommendation along with other options, including earlier
       phone intervention, to improve the notice process.
       Office of Audit Comment: In their response, the IRS stated 5 weeks between notices
       was necessary to process taxpayer inquiries and correspondence. However, our report
       noted the IRS has controls in place to prevent the next notice from being sent when the
       IRS is processing taxpayers’ correspondence. During our audit, the IRS was unable to
       provide any data supporting the need for 35 days to accomplish this task; however, our
       analysis of the 11.6 million taxpayer modules that entered the notice stream in FY 2010
       showed it does not take 35 days to process payments or installment agreement requests.
       The IRS also disagreed with the outcome measures in the report, stating that while it may
       be appropriate to consider private collection curves when reviewing the IRS collection
       process, the IRS has enforcement tools not available to private industry. It is unclear why
       the IRS refers to its enforcement tools because collection rates in private industry are
       higher than in the IRS. Further, the IRS Office of Research has recognized the
       probability of collection diminishes as taxpayers’ balance due accounts age.

Processing Varies for Taxpayers With Multiple Balance Due Modules
The IRS has developed variations on the practice of sending taxpayers four notices before
deciding whether to send any uncollected balance due modules to the next collection phase. For
example, the IRS may take such actions as skipping the discretionary reminder notices to
accelerate a debt to the next collection phase. The IRS established business rules that are
embedded in the IRS’s computer system that determine the number and types of notices. These
business rules also determine whether collection action should be deferred or the modules should


                                                                                          Page 13
                                 Reducing the Processing Time Between
                             Balance Due Notices Could Increase Collections



be sent to other phases for further collection action. The business rules were created in an
attempt to make the most effective use of collection resources.
Our analysis of the 11.6 million balance due modules that entered the notice stream in FY 2010
showed the notice stream does not always treat taxpayers the same when there is more than
one balance due module. Modules with other open balance due modules in a TDA status and
assigned to either the ACS, the CFf, or the Queue, skip the discretionary reminder notices and
accelerate a debt to the next collection phase. These modules should proceed from the Master
File notice to the CP 504 notice and then TDA issuance. However, we identified taxpayers who
had more than one balance due module enter the notice stream at the same time. Specifically,
more than 263,000 taxpayers had 670,761 balance due modules enter the notice stream on the
same day. Approximately 75 percent of these modules were not accelerated by receiving the
CP 504 notice after the Master File notice.
Taxpayers who have existing open balance due modules when a new balance due module enters
the notice stream are in a similar situation as taxpayers who have more than one module entering
the stream on the same day. When this occurs, the taxpayer has two open modules in the notice
stream at the same time. However, IRS management explained that there are no business rules
that address the situation of taxpayers who have more than one module entering the stream on
the same day. The IRS added that the taxpayers with more than one module entering the notice
stream is not as much of a collection risk as those taxpayers with an existing open balance due
module.
In its report on the IRS notice stream, the GAO17 determined the IRS lacks documentation on the
notice phase business rules and whether the business rules work as intended. The GAO also
stated the IRS could not provide documentation on the rationales, such as the factors considered
or reasons for adopting the rule, for any of the rules reviewed. Accordingly, the IRS may not
have considered the collection risk of taxpayers who have more than one balance due module
enter the notice stream at the same time.
When the notice stream business rules do not address taxpayers with more than one module
entering the notice stream at the same time, the IRS may not be making the most effective use of
collection resources.

Recommendation
Recommendation 2: The Director, Collection Policy, Small Business/Self-Employed
Division, should consider establishing a business rule to address taxpayers with multiple balance
due modules entering the notice stream at the same time.


17
  Tax Debt Collection: IRS Needs to Better Manage the Collection Notices Sent to Individuals (GAO-09-976, dated
September 2009).
                                                                                                      Page 14
                      Reducing the Processing Time Between
                  Balance Due Notices Could Increase Collections



Management’s Response: IRS management agreed with this recommendation. The
Director, Collection Policy, Small Business/Self-Employed Division, will reexamine the
business rules and consider establishing a rule to address taxpayers with multiple balance
due modules entering the notice stream at the same time.




                                                                                  Page 15
                                    Reducing the Processing Time Between
                                Balance Due Notices Could Increase Collections



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of the IRS’s balance due notice stream
in collecting taxes owed and providing timely service to taxpayers. To accomplish this
objective, we:
I.         Reviewed collection procedures in the IRS’s Internal Revenue Manual and interviewed
           IRS employees to determine current collection processes used and compliance with
           statutory regulations.
II.        Obtained from the IRS Collection Database1 a computer extract of the
           COLL_IMF_MODULE_BALDUE, a Collection file that contains records of individual
           taxpayer modules that entered the notice stream as status 19/21 (initial Master File
           notice) and tracks the related collection activity on each module.
           A. Analyzed 11,625,698 individual taxpayer modules that received the initial Master File
              notice during FY 2010 and captured any collection activity on those modules from
              issuance of the initial notice through December 31, 2010.
           B. Assessed the validity of the extract by comparing the data contained in 30 records to
              information from the IRS Individual Master File.
III.       Selected a random sample of 296 balance due modules from a population of
           222,509 balance due modules that received CP 504 notice (final notice) during the
           5-week period ending as of July 31, 2010. We selected a random sample using a
           confidence level of 90 percent, a precision rate ±5 percent, and an expected rate of
           occurrence of 50 percent (unknown) in order to project our results to the population.
           A. For each module in our sample, researched the IDRS using various command codes
              to gather relevant information for each module.
           B. Analyzed the information to determine 1) the change in delinquency balance due
              amount resulting from partial payments, refund offsets, abatements, etc.; 2) the
              interest incurred on the balance due amount; and 3) the current status of the balance
              due account.
IV.        Used a generally accepted industry collectability curve to determine the potential impact
           of reducing the time between each notice.


1
    See Appendix VII for a glossary of terms.
                                                                                             Page 16
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS business rules for sending balance
due modules through the notice stream. We evaluated these controls by interviewing
management, reviewing a sample of balance due modules that exited the notice stream, and
analyzing approximately 11.6 million balance due modules that entered the notice stream during
FY 2010.




                                                                                          Page 17
                            Reducing the Processing Time Between
                        Balance Due Notices Could Increase Collections



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Richard Viscusi, Lead Auditor
Michael Garcia, Senior Auditor
Frank Maletta, Auditor
Laura Paulsen, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                      Page 18
                           Reducing the Processing Time Between
                       Balance Due Notices Could Increase Collections



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Divsion SE:S:CCS
Director, Collection-Field, Small Business/Self-Employed Division SE:S:C
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Office of Taxpayer Correspondence, Wage and Investment Division SE:W:OTC
Chief Counsel CC
Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                Page 19
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   •   Increased Revenue – Potential; $1.8 billion for a 5-year period by reducing the time
       between each balance due notice by 7 days (see page 5).

Methodology Used to Measure the Reported Benefit:
During FY 2010, approximately 11.6 million balance due modules with assessments totaling
$67.9 billion entered the balance due notice stream. We identified the specific paths (number of
notices) that these modules took while in the notice stream. Using a generally accepted industry
collectability curve, we matched the timeline of the various balance due notice paths and
estimated the potential collection rates of each notice based on the curve. We then decreased the
notice stream timeline by 7 days for each notice and identified the percentage points increase in
collections the notice stream could potentially realize. The difference between the two estimated
collection rates from the Master File notice to the first reminder notice sent was 1 percentage
point, which we multiplied by the assessment amounts (less amounts collected and abated while
in the notice stream) to determine the amount of additional revenue the notice stream could
collect.
   •   5,767,196 modules with assessments of $36,343,485,312 with the notice stream timeline
       reduced 7 or more days results in an additional 1 percent collection rate.
       •   $36,343,485,312 × 1 percent = $363,434,853.
This resulted in total additional revenue collected of $363,434,853. The additional revenue for
FY 2010 was multiplied by 5 to obtain a 5-year projection of $1,817,174,265.

Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; 466,544 taxpayers could reduce the interest they pay on
       their delinquent tax by $9.1 million for a 5-year period by reducing the time between
       each balance due notice by 7 days (see page 5).



                                                                                          Page 20
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



Methodology Used to Measure the Reported Benefit:
During FY 2010, approximately 11.6 million balance due modules with assessments totaling
$67.9 billion entered the balance due notice stream. We identified the specific paths (number of
notices) that these modules took while in the notice stream before exiting and being assigned to
the ACS or the CFf. Overall, 466,544 taxpayers made payments on their delinquent accounts
after being assigned to the ACS or the CFf. By reducing the time between each notice by 7 days,
we calculated the potential reduction in interest charges that taxpayers would have to pay
because their delinquent accounts would be assigned to the ACS or the CFf 7 to 21 days earlier
(depending on how many notices were received in the notice stream). The current rate of interest
the IRS charges on delinquent taxes is 4 percent.
Taxpayers who received two notices in the notice stream:
   •   149,031 taxpayers paid $522,254,832 after their delinquent accounts were assigned to the
       ACS or the CFf. 
       •   ($522,254,832 × 4 percent / 365) × 7 days = $400,634. 
Taxpayers who received three notices in the notice stream:
   •   254,799 taxpayers paid $830,119,057 after their delinquent accounts were assigned to the
       ACS or the CFf. 
       •   ($830,119,057 × 4 percent / 365) × 14 days = $1,273,607. 
Taxpayers who received four notices in the notice stream:
   •   67,684 taxpayers paid $59,264,259 after their delinquent accounts were assigned to the
       ACS or the CFf. 
       •   ($59,264,259 × 4 percent / 365) × 21 days = $136,389. 
The number of taxpayers affected was 466,544, as there were 4,970 taxpayers who had multiple
modules. The total interest savings is $1,810,630. The interest savings for FY 2010 was
multiplied by 5 to obtain a 5-year projection of $9,053,150.




                                                                                        Page 21
                                Reducing the Processing Time Between
                            Balance Due Notices Could Increase Collections



                                                                                      Appendix V

                        Computer Paragraph Notices

CP #                Name                                            Explanation
14      Balance Due of $5.00 or          Issued as a first notice to inform a taxpayer of a balance
        More, No Math Error              due when there is no math error.
501     1st Notice – Individual          First reminder notice issued to taxpayers reminding them
        Master File Balance Due          of a balance due on one of their tax accounts.
503     2nd Notice – Individual          Second reminder notice issued to taxpayers reminding
        Master File Balance Due          them of a balance due on one of their tax modules.
504     Final Notice – Individual        Final notice issued to taxpayers informing them that the
        Master File Balance Due          IRS intends to issue a levy against the taxpayer’s State tax
                                         refund because there is still a balance due on one of their
                                         tax accounts. Also, it informs the taxpayers that the IRS
                                         will begin searching for other assets on which to issue a
                                         levy and that the IRS may also file a Federal Tax Lien.
Source: IRS Document 6209 (IRS Processing Codes and Information).




                                                                                              Page 22
                                  Reducing the Processing Time Between
                              Balance Due Notices Could Increase Collections



                                                                                                            Appendix VI

                                             Notice Results

                                      Modules Closed by Notice Type1
                                                                                                                Total
    FY 2010 Balance Due                 MF Notice            CP 501         CP 503             CP 504
                                                                                                             Dispositions
    Notices Issued                        11,625,698         2,521,824       3,571,082          4,176,674
    Disposition Types
    Full Paid                                2,633,230         485,000         295,388           279,391        3,693,009
    Installment Agreement                    2,431,131         129,343         271,130           356,745        3,188,349
      Dispositions                           5,064,361         614,343         566,518           636,136        6,881,358
    Dispositions/Total Dispositions             73.6%             8.9%               8.2%            9.2%
    Total Dispositions/Notices                  59.2%
    Source: Our analysis of the IRS Collection Database of individual modules entering the balance due notice
    stream in FY 2010. MF = Master File.



                                    Dollars Collected by Notice Type2

    FY 2010 Balance Due          MF Notice          CP 501            CP 503                CP 504            Overall

    Notices Issued                 11,625,698        2,521,824           3,571,082           4,176,674
    Amount Assessed         $67,958,271,184 $6,217,541,371 $21,629,498,037 $36,743,016,687
    Payments (Collected)    ($7,264,611,093)     ($363,699,761) ($1,834,210,095) ($1,747,311,775) ($11,209,832,724)
    Collected/Assessment               10.7%              5.8%               8.5%                 4.8%              16.5%
    Collected/Overall                  64.8%              3.2%              16.4%                15.6%
    Source: Our analysis of the IRS Collection Database of individual modules entering the balance due notice
    stream in FY 2010. MF = Master File.




1
  The number of CP 501, CP 503, and CP 504 notices does not represent new modules but the number of modules
that received these notices after receiving the Master File notice. Accordingly, the amount assessed on the Master
File notices is the total amount of assessments that entered the notice stream while the amount assessed on
subsequent notices is the amount of assessments that pertain to those specific notices.
2
  The overall Collected/Assessment percentage (16.5 percent) represents the overall amount collected
($11,209,832,724) as a percentage of the overall amount assessed ($67,958,271,184).
                                                                                                                        Page 23
                             Reducing the Processing Time Between
                         Balance Due Notices Could Increase Collections



                                                                                Appendix VII

                                Glossary of Terms

Abated – The amount of tax liability (tax assessment) on a taxpayer’s module that has been
reversed.
Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Assessment – The determination of a taxpayer’s liability, including applicable interest and
penalties.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Balance Due Module – A balance due account occurs when the taxpayer has an outstanding
liability for taxes, penalties, or interest.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Services Collection Operation – Units of tax examiners that work Balance Due
Notice Program cases in the campuses.
Individual Master File – The IRS database that maintains transactions or records of individual
taxpayer accounts.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Service Collection Database – The IRS database that tracks activity on
individual balance due modules from the initial balance due notice to ultimate resolution. The
IRS Collection database uses information from the Individual Master File.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.




                                                                                          Page 24
                              Reducing the Processing Time Between
                          Balance Due Notices Could Increase Collections



Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Module – Refers to one specific tax return filed by the taxpayer for one specific tax period (year
or quarter) and type of tax.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Officers – Employees in the Collection field offices who attempt to contact taxpayers
and resolve collection matters that have not been resolved by the notice stream or the ACS.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate Taxpayer
Delinquent Account exists for each tax period.




                                                                                             Page 25
            Reducing the Processing Time Between
        Balance Due Notices Could Increase Collections



                                                Appendix VIII

Management’s Response to the Draft Report




                                                         Page 26
    Reducing the Processing Time Between
Balance Due Notices Could Increase Collections




                                                 Page 27
    Reducing the Processing Time Between
Balance Due Notices Could Increase Collections




                                                 Page 28
